Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




MIDYEAR FORMULARY CHANGES
 IN MEDICARE PRESCRIPTION
        DRUG PLANS




                    Daniel R. Levinson
                     Inspector General

                      December 2009
                     OEI-01-08-00540
               Office of Inspector General
                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
           E X E C U T I V E             S U M M A R Y


                    OBJECTIVES
                        1. To describe the extent and nature of midyear formulary changes
                           that Part D sponsors made in 2008.

                        2. To determine the extent to which sponsors adhered to the
                           Centers for Medicare & Medicaid Services’ (CMS) beneficiary
                           notification requirements for negative midyear formulary
                           changes in 2008.

                        3. To determine the extent to which CMS monitored Part D
                           sponsors’ midyear formulary changes in 2008.


                    BACKGROUND
                    The Medicare Prescription Drug, Improvement, and Modernization Act
                    of 2003 established Medicare Part D to provide voluntary prescription
                    drug coverage to beneficiaries. CMS contracts with private companies,
                    called sponsors, to operate Part D prescription drug plans. Sponsors
                    identify the complete list of drugs they cover in their formularies.

                    CMS sets guidelines for when and how sponsors may make changes to
                    their formularies, referred to as positive and negative changes. Positive
                    changes require no CMS approval and enhance the formulary by adding
                    new drugs, reducing cost sharing, or removing utilization controls.
                    Negative changes, which require CMS approval, restrict the formulary
                    by removing drugs, increasing cost sharing, or adding utilization
                    controls. Sponsors must provide written notice to beneficiaries
                    currently taking affected drugs before implementing negative changes.
                    CMS also requires sponsors to post updated formularies on their Web
                    sites at least monthly and to list formulary changes 60 days before they
                    take effect.

                    To conduct this study, we analyzed CMS data on formulary changes and
                    interviewed CMS staff. We also drew a sample of 120 formularies for
                    analysis, reviewed sponsors’ notification letters, and reviewed
                    20 formularies posted on sponsors’ Web sites.


                    FINDINGS
                    In 2008, all Part D sponsors made formulary changes. The majority
                    of changes (64 percent) were positive. Thirty-six percent were negative,


OEI-01-08-00540     MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS     i
             E X E C U T I V E            S U         M M A R Y

                     and 62 percent of negative changes involved generic substitution. Other
                     negative changes removed drugs without providing lower cost
                     alternatives, added utilization controls without providing alternatives,
                     or increased cost sharing.
                     With few exceptions, sponsors met beneficiary notification
                     requirements for formulary changes. The notification letters we
                     reviewed gave beneficiaries more advance notice than required, with a
                     median of 74 days. Overall, 88 percent of the notification letters
                     contained all six required elements—drug name, change type, reason for
                     the change, alternative drugs, new cost sharing, and exceptions—while
                     12 percent of the letters contained five or fewer elements. In addition,
                     we could not readily identify 60 percent of approved midyear changes on
                     sponsors’ Web sites.
                     CMS reviewed nearly all formulary changes listed in notification
                     letters. CMS uses systematic checks to monitor formulary change
                     requests and limits changes that restrict access to drugs without
                     offering cost-saving alternatives or promoting drug safety. Even though
                     these checks were in place, we detected some noncompliance whereby
                     sponsors failed to seek approval for midyear changes. Only 1 percent of
                     changes listed in notification letters required CMS approval but were
                     not in the original change request file. Nearly all of these unapproved
                     changes involved substituting or adding generic drugs.


                     CONCLUSION
                     This study found that sponsors and CMS are managing midyear
                     formulary changes in compliance with Part D program requirements.
                     Part D regulations require sponsors to promote cost-effective use of
                     prescription drugs where medically appropriate, and it appears that
                     sponsors adhered to these rules. CMS provides sponsors with various
                     forms of guidance on formulary change requests and beneficiary
                     notification. Although some sponsors may need more specific guidance
                     on notification practices, we found that most complied with CMS
                     regulations and provided even more advance notice than the 60-day
                     standard requires. In addition, we found that sponsors’ Web sites did
                     not reflect all the changes approved by CMS. Further analysis may be
                     warranted to determine the full extent of consistency between approved
                     changes to sponsors’ formularies and the changes that appear on their
                     Web sites and to determine whether additional guidance is needed to
                     address any inconsistencies.


OEI-01-08-00540      MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                         ii
          E X E C U T I V E           S U       M M A R Y



                    AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                    RESPONSE
                    CMS generally agreed with our findings. CMS requested that we
                    specify that beneficiaries currently taking medications not subject to
                    generic substitution are protected from disruptions in therapy. CMS
                    also stated that it is working with a contractor to assess consistency
                    between sponsors’ Web versions of formularies and CMS’s approved
                    files. Based on the agency’s comments, we made appropriate revisions
                    to the report.




OEI-01-08-00540     MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                        iii
           T A B L E           O F           C O N T E N T S




                  EXECUTIVE SUMMARY .....................................i


                  INTRODUCTION ........................................... 1



                  FINDINGS ................................................. 8
                            In 2008, all Part D sponsors made formulary changes . . . . . . . . . . 8

                            With few exceptions, sponsors met beneficiary notification
                            requirements for formulary changes . . . . . . . . . . . . . . . . . . . . . . . 11

                            CMS reviewed nearly all formulary changes listed in notification
                            letters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13



                  C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
                            Agency Comments and Office of Inspector General Response . . . 15



                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                            A: Maintenance and Nonmaintenance Changes in the Negative
                            Change Request File . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

                            B: Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                            C: Data Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                            D: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34




OEI-01-08-00540         MIDYEAR FORMULARY CHANGES       IN   MEDICARE PRESCRIPTION DRUG PLANS                                    i
           I N T R O D U C T I O N


                    OBJECTIVES
                        1. To describe the extent and nature of midyear formulary changes
                           that Part D sponsors made in 2008.

                        2. To determine the extent to which sponsors adhered to the
                           Centers for Medicare & Medicaid Services’ (CMS) beneficiary
                           notification requirements for negative midyear formulary
                           changes in 2008.

                        3. To determine the extent to which CMS monitored Part D
                           sponsors’ midyear formulary changes in 2008.


                    BACKGROUND
                    Medicare Part D
                    Effective January 1, 2006, the Medicare Prescription Drug,
                    Improvement, and Modernization Act of 2003 established Medicare
                    Part D to provide voluntary prescription drug coverage to beneficiaries. 1
                    CMS contracts with private companies, called sponsors, which operate
                    Part D prescription drug plans. As of January 2008, over 25 million
                    beneficiaries were enrolled in prescription drug plans.

                    A formulary is a complete list of the drugs that a drug plan covers, and
                    it may change during the year. 2 However, the extent to which Part D
                    sponsors alter their formularies during the year has been unknown.
                    Midyear formulary changes can be advantageous for beneficiaries if
                    they introduce new medications or promote cost savings. However,
                    midyear changes can also adversely affect beneficiaries by restricting
                    access to prescription drugs or increasing drug costs. Furthermore,
                    CMS compliance audits of Part D sponsors suggest that sponsors did not
                    fully comply with regulations regarding beneficiary notification for
                    midyear formulary changes. Beginning in 2007, CMS audited sponsors’
                    formulary change notification practices and found that 28 percent of
                    sponsors had not notified beneficiaries of midyear formulary changes
                    according to regulations. 3




                      1 P.L. No. 108-173.
                      2 42 CFR § 423.4.
                      3 Office of Inspector General (OIG) analysis of CMS 2007–2008 compliance audit data.




OEI-01-08-00540     MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                             1
    I N T R O D   U C T       I O N

                   Part D Formularies
                   Sponsors organize formularies into broad therapeutic categories
                   (hereinafter, categories) and then into subsets called pharmacologic
                   classes (hereinafter, classes). Formularies must include categories and
                   classes that cover all disease states. 4
                   In 2008, USP, a standard-setting authority for prescription drugs,
                   defined 50 categories and 119 classes. 5 For example, USP defines blood
                   glucose regulators as a category, with antidiabetic agents as a class
                   within that category. Formularies must include at least two chemically
                   distinct drugs in each category or class of drugs. 6
                   CMS designates a subset of six classes (hereinafter, protected classes)
                   for which substantially all available drugs must be covered in every
                   formulary: anticonvulsants, antidepressants, antineoplastics,
                   antipsychotics, antiretrovirals, and immunosuppressants. 7
                   Formulary Management
                   Sponsors may use various tools to control costs and ensure patient
                   safety. 8 In addition to controlling the drugs they cover, sponsors may
                   manage formularies by applying utilization controls and by setting
                   cost sharing in a way that encourages beneficiaries to use lower cost
                   drugs. Examples of utilization controls include:

                             prior authorization, whereby a beneficiary must obtain explicit
                              approval from the plan before it will cover a drug;

                             step therapy, whereby a beneficiary must first try the most
                              cost-effective and safest drugs, moving on to more expensive or
                              risky drugs only if medically necessary; and

                             quantity limits, whereby a beneficiary may obtain only a limited
                              quantity of a prescription at one time, usually to ensure patient
                              safety or encourage cost-effective use of the drug.


                     4 Part D sponsors may use several classification systems to organize formularies,
                   including the United States Pharmacopeia (USP) and the American Hospital Formulary
                   Service. CMS must approve a sponsor’s proposed classification system to ensure the
                   formulary provides access to an acceptable range of Part D drug choices. CMS, Medicare
                   Prescription Drug Benefit Manual, ch. 6, § 30.2.1, July 18, 2008.
                     5 USP,   Model Guidelines and Formulary Key Drug Types, Version 3.0. Available online
                   at http://www.usp.org/pdf/EN/mmg/modelGuidelinesV3.0WithFKDTs.pdf. Accessed on
                   October 1, 2008.
                     6 CMS,   Medicare Prescription Drug Benefit Manual, ch. 6, § 30.2.1.
                     7 CMS,   Medicare Prescription Drug Benefit Manual, ch. 6, § 30.2.5.
                     8 CMS,   Medicare Prescription Drug Benefit Manual, ch. 6, § 30.1.5.



OEI-01-08-00540    MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                            2
    I N T R O D   U C T      I O N

                   Sponsors typically establish differential cost sharing by dividing drugs
                   into tiers that correspond to the amount the beneficiary will pay. Drugs
                   in lower priced tiers are considered “preferred” drugs and those in
                   higher priced tiers are considered “nonpreferred.” For example, a Tier 1
                   drug is typically a low-cost generic drug for which a beneficiary might
                   make a $5 or $10 copayment, while Tier 2 or Tier 3 drugs are likely to
                   be more expensive brand-name drugs for which a beneficiary might
                   make a $20 or $30 copayment. 9
                   The ways in which sponsors manage their formularies can affect some
                   beneficiaries’ access to drugs. For example, beneficiaries who use multiple
                   high-cost drugs may find that utilization controls create layers of
                   administrative burden for both themselves and prescribers and, therefore,
                   could make it difficult to obtain necessary drugs. 10 In addition, sponsors
                   may increase the cost sharing on brand-name drugs during the year if a
                   lower cost or generic drug is available. Beneficiaries who take these
                   brand-name drugs could face unexpected increases in cost sharing.
                   Midyear Formulary Changes
                   Sponsors hold a 1-year contract with CMS for each plan they offer.11
                   The contract year begins January 1 and ends December 31. CMS sets
                   guidelines for when sponsors may make certain types of midyear
                   formulary changes.

                   CMS refers to midyear formulary changes as either positive or negative
                   changes. 12 Positive changes enhance the formulary by adding new
                   drugs, reducing cost sharing, or removing utilization controls. 13
                   Sponsors may make positive formulary changes at any time during the
                   contract year without CMS approval. 14
                   Negative changes, which require CMS approval, restrict the formulary
                   by removing drugs, increasing cost sharing, or adding utilization


                      9 Copayments may vary substantially across plans and may be set as a fixed dollar
                   amount or a percentage of the drug’s negotiated price. Percentage copayments may
                   fluctuate during the year if the drug manufacturer changes the drug’s price. CMS does not
                   require approval for these types of changes.
                     10 Kaiser Family Foundation,     Medicare Part D 2008 Spotlight: Utilization Management.
                   Available online at http://kff.org/medicare/upload/7735.pdf. Accessed on October 1, 2008.
                     11 42 CFR § 423.506.
                     12 CMS, Memorandum, “Calendar Year (CY) 2006 and CY 2007 Formulary Changes—
                   New October Submission Window and Policy on Enhancements Added Between the October
                   and February Submissions,” October 5, 2006.
                     13 CMS also refers to positive changes as “enhancements.”
                     14 CMS, Medicare Prescription Drug Benefit Manual, ch. 6, § 30.3.3.1.




OEI-01-08-00540    MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                               3
          I N T R O D    U C T         I O N

                    controls. Negative changes that remove drugs may simultaneously add
                    replacement drugs. However, these are still considered negative
                    changes. CMS categorizes negative changes according to their
                    purposes. Sponsors may make routine negative changes that remove
                    drugs or change utilization controls if the purpose is to promote cost
                    savings or drug safety. For example, sponsors may remove a costly
                    brand-name drug from the formulary when a lower cost generic version
                    becomes available. In other cases, sponsors may place quantity limits
                    on drugs because of new safety warnings. Other types of negative
                    changes may remove drugs from the formulary or increase utilization
                    controls without providing alternatives. For example, a sponsor may
                    increase the cost sharing on an expensive brand-name drug but not offer
                    a less expensive alternative drug in its place.
                    Sponsor Request and CMS Approval of Negative Midyear Formulary
                    Changes
                    Sponsors must obtain CMS approval 60 days before they implement
                    negative changes. 15 Only in cases in which the Food and Drug
                    Administration has deemed a drug unsafe or manufacturers have
                    withdrawn drugs from the market may sponsors remove drugs without
                    CMS approval. Although sponsors may not make any negative changes
                    during the first 60 days of the contract year, they may seek approval for
                    them beginning in January. Sponsors may then implement negative
                    changes between March 1 and July 31. 16 17
                    CMS generally approves routine negative changes and limits other
                    negative changes. 18 Therefore, CMS guidance states that sponsors may
                    assume CMS has approved routine change requests involving
                    cost savings or drug safety if they do not hear from CMS within
                    30 days. 19
                    Sponsors must wait for CMS approval before making other negative
                    changes. For example, CMS may disapprove a change if it substantially
                    discourages enrollment by certain beneficiary groups or means that the
                    formulary would no longer include two drugs per category or class. 20



                        15 Ibid., §§ 30.3.3.1 and 30.3.4.1.
                        16 Ibid., § 30.3.2.
                        17 CMS, Memorandum, “Updating 2007 and CY 2008 Formularies,” June 20, 2007.
                        18 For more information on negative changes, see Appendix A.
                        19 CMS,   Medicare Prescription Drug Benefit Manual, ch. 6, § 30.3.3.2.
                        20 CMS,   Medicare Prescription Drug Benefit Manual, ch. 6, § 30.3.3.3.



OEI-01-08-00540     MIDYEAR FORMULARY CHANGES      IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                      4
          I N T R O D    U C T          I O N

                    Sponsor Notification to Beneficiaries
                    With few exceptions, sponsors must provide 60 days’ written notice to
                    beneficiaries currently taking affected drugs before implementing
                    negative formulary changes. 21 Sponsors also have the option to provide
                    written notice to all enrolled beneficiaries to meet the 60-day
                    notification requirement. 22 CMS does not require sponsors to send
                    notifications for positive formulary changes. 23 A written notification of
                    a formulary change must include:

                         the name of the drug,

                         the type of change made to the formulary,

                         the reason for the change,

                         alternative drugs in the same class,

                         expected cost sharing for alternative drugs, and

                         information on obtaining a coverage determination or an exception
                          for coverage of the affected drug. 24
                    CMS requires sponsors to post updated formularies on their Web sites
                    at least monthly and to list formulary changes 60 days before they take
                    effect. 25 Sponsors may post formularies as PDF files, but may use other
                    formats as well. In addition, online formularies must be accessible by a
                    drug name search, and sponsors must include notice of any midyear
                    changes on their Web sites. 26


                    METHODOLOGY
                    Scope
                    This study analyzed the extent and nature of midyear formulary
                    changes made by Medicare prescription drug sponsors in 2008 and
                    CMS’s monitoring of these changes. It also analyzed the extent to
                    which sponsors complied with CMS notification requirements. It did
                    not review year-to-year formulary changes or analyze specific types of
                    drugs that sponsors included in their formularies.

                        21 CMS,    Medicare Prescription Drug Benefit Manual, ch. 6, §§ 30.3.3.2 and 30.3.4.1.
                        22 CMS,    Medicare Prescription Drug Benefit Manual, ch. 6, § 30.3.4.4.
                        23 CMS, Memorandum, “Formulary Changes During the Plan Year: Operational
                    Frequently Asked Questions,” May 5, 2006.
                        24 CMS,    Medicare Prescription Drug Benefit Manual, ch. 6, § 30.3.4.1.
                        25 CMS,    Medicare Prescription Drug Benefit Manual, ch. 2, pp. 62 and 64, July 25, 2006.
                        26 Ibid.




OEI-01-08-00540     MIDYEAR FORMULARY CHANGES      IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                 5
          I N T R O D   U C T      I O N

                    Data Sources
                    We used files from CMS’s Health Plan Management System (HPMS) to
                    create the universe of formularies that sponsors used in 2008. The
                    universe contained 329 formularies and 204 sponsors.

                    We divided the list of 329 formularies into two strata: (1) those for
                    which the sponsors did not request approval for negative changes and
                    (2) those for which the sponsors requested approval for negative
                    changes. Stratum 1 contained 94 formularies and stratum 2 contained
                    235 formularies. We then drew 50 formularies from stratum 1 and
                    70 formularies from stratum 2 for a total of 120 formularies. The
                    formularies in our sample corresponded to 87 sponsors.
                    We used the following data sources to analyze changes to the sampled
                    formularies in 2008:

                    1. Negative Change Request (NCR) file and Formulary Change
                       Notification Report (FCR): We used the NCR and FCR files in
                       HPMS to analyze positive changes and approved negative changes
                       to the 120 sampled formularies. We used these files to analyze the
                       extent and nature of formulary changes and to account for the
                       changes listed in sponsors’ notification letters. The 120 formularies
                       in our stratified random sample had 4,333 negative change requests;
                       CMS approved 3,425 of these requests. The FCR had 7,886 positive
                       changes.

                    2. Sponsors’ formulary change notification letters: We contacted
                       150 compliance officers from sponsors that used the sampled
                       formularies to obtain notification letters for their formulary
                       changes. We received a 100-percent response. However,
                       10 compliance officers referred us to another officer already in our
                       sample. Therefore, we received final responses from 140 compliance
                       officers. We later followed up with these compliance officers to
                       collect more information on sponsors’ notification policies.

                        The responses included 853 notification letters covering
                        2,197 changes. Among negative changes listed in the letters,
                        484 had not been approved by CMS or did not require CMS
                        approval. The 3,425 approved changes from the NCR file plus the
                        516 unapproved changes equaled all negative changes (3,941). We
                        summed all negative (3,941) and positive (7,886) changes to get the
                        total number of formulary changes (11,827).

                    3. Formularies from sponsors’ Web sites: We selected a sample of
                       20 formularies based on convenience and availability from our

OEI-01-08-00540     MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                        6
        I N T R O D    U C T       I O N




                      4. Interviews with CMS staff: We interviewed CMS staff responsible
                         for reviewing and approving midyear formulary changes. We asked
                         them about CMS processes to approve and track midyear changes.

                      Appendix B contains a full description of our methods.
                      Limitations
                      We could not assess whether sponsors sent a notification letter to every
                      enrollee who should have received one. CMS requires sponsors to notify
                      only those enrollees who are affected by negative formulary changes.
                      However, we could not determine which enrollees were affected by each
                      change and whether they received letters. Rather, we examined the
                      content of the notification letters to see whether CMS had approved the
                      negative changes listed in the letters.
                      Standards
                      This study was conducted in accordance with the “Quality Standards for
                      Inspections” approved by the Council of the Inspectors General on
                      Integrity and Efficiency.




OEI-01-08-00540       MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                          7
  F        F I N D I N SG S
           I N D I N G
                  In 2008, all Part D sponsors made         All sponsors that offered Part D
                                  formulary changes         plans in 2008 made some type of
                                                            positive or negative change to their
                        formularies. Seventy-six percent of sponsors requested at least one
                        negative change from CMS in 2008. Sponsors must request approval for
                        negative changes from CMS, but need not seek approval for positive
                        changes. CMS approved 79 percent of the 4,333 negative change
                        requests by sponsors in our sample.
                        Sixty-four percent of all formulary changes were positive
                        Positive formulary changes enhanced formularies by adding drugs,
                        decreasing cost sharing, or deleting utilization controls. Among the
                        7,886 positive changes in our sample, 60 percent decreased cost sharing
                        or removed utilization controls, such as step therapy, prior
                        authorization, or quantity limits.

                        The remaining 40 percent of positive changes added drugs to the
                        formulary. On average, positive formulary changes added twice as
                        many drugs as negative changes removed (the average number of drugs
                        added to each formulary was 46; the average number of drugs removed
                        was 22).
                        Thirty-six percent of all formulary changes were negative, and most
                        negative changes involved generic substitution
                        Negative changes involved removing drugs, moving drugs to higher
                        cost-sharing tiers, or adding utilization controls. However, as Table 1
                        shows, 62 percent of negative changes involved substituting or adding
                        generic drugs. Because generic drugs cost less than brand-name drugs,
                        CMS considers sponsors’ efforts to reduce beneficiaries’ drug costs to be
                        a part of routine formulary management.
                        Table 1: Formulary Changes, 2008


                         Type of Change                                             Percentage        Percentage That Added
                                                                                     (n=11,827)       or Substituted Generics

                         Positive changes                                                  64%                             N/A
                         Negative changes                                                  36%                            62%
                           Total changes                                                  100%
                       Sample includes positive and negative changes.
                       Source: Office of Inspector General (OIG) analysis of Medicare Part D 2008 midyear formulary changes.


                        Eighty-seven percent of changes that removed brand-name drugs from
                        the formularies replaced them with generic versions. Among changes



OEI-01-08-00540         MIDYEAR FORMULARY CHANGES       IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                               8
                  F   I N D I N G          S


                           that increased cost sharing for brand-name drugs, 78 percent added
                           generic drugs to the formularies at the lowest cost-sharing tiers.

                           Medicare regulations require sponsors to promote cost savings by
                           managing drug utilization in a medically appropriate manner. 27
                           Replacing brand-name drugs with less expensive generic drugs and
                           placing generic drugs in the lowest cost-sharing tiers are two methods
                           sponsors can use to meet this requirement. Thus, the focus on generic
                           drugs in midyear changes reflects expectations in Medicare regulations.

                           Table 2 shows that removing drugs and moving drugs to higher
                           cost-sharing tiers were the most common negative changes and that
                           these changes also had the highest rates of generic drug substitution.
                           Changes that added utilization controls, such as prior authorization,
                           step therapy, and quantity limits, had lower rates of generic drug
                           substitution. Rather, sponsors used these changes to adhere to new
                           clinical guidelines or drug safety warnings.
                           Table 2: Negative Changes That Promoted Generic Drug
                           Substitution, 2008

                                                                               Type of Change as a              Percentage of This
                                                                             Percentage of Negative          Change That Promoted
                              Type of Change                                               Changes             Generic Substitution
                                                                                             (n=3,941)

                             Remove drugs                                                         56%                             87%
                             Move drugs to higher cost-sharing
                                                                                                  17%                             78%
                             tiers
                             Add step therapy                                                      7%                             1%*
                             Add prior authorization                                               5%                             1%*
                             Add quantity limit                                                    4%                             N/A
                             Other changes†                                                       11%                             N/A
                               Total negative changes                                           100%
                           * We were unable to project these estimates to the population of negative changes. See Appendix C,
                           Table C-9.

                           † Other changes include removing or discontinuing drugs or adding utilization controls to promote drug safety
                           or to determine Part B vs. Part D reimbursement. Quantity limits and “other” changes generally do not involve
                           generic substitution; therefore, we have no estimates on generic substitution for these changes.
                           Source: OIG analysis of Medicare Part D 2008 negative midyear formulary changes.



                           Forty-six percent of negative changes affected drugs most commonly
                           prescribed to Medicare beneficiaries, as defined by CMS. 28 Sixty-nine


                              27 42 CFR § 423.153(b).
                              28 CMS, Medicare Prescription          Drug Benefit Manual, ch. 6, Appendix D.



OEI-01-08-00540            MIDYEAR FORMULARY CHANGES         IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                                       9
                  F   I N D I N G          S


                        percent of these changes involved substituting generic drugs for
                        brand-name drugs or altering cost sharing or utilization controls to
                        encourage generic drug use. For example, Fosamax (alendronate
                        sodium), a drug that treats osteoporosis, became available in generic
                        form in 2008. Not surprisingly, because Fosamax was the second most
                        commonly prescribed drug among Medicare beneficiaries in 2008,
                        53 percent of sponsors requested changes that added the generic version
                        of Fosamax to their formularies or added utilization controls to
                        encourage use of the generic form. 29
                        Negative formulary changes that involved generic drugs also affected
                        the six protected classes that sponsors must include in their
                        formularies. 30 Thirty-nine percent of negative changes affected drugs in
                        protected classes. Among these negative changes, 69 percent
                        substituted generic drugs for brand-name drugs or altered cost sharing
                        or utilization controls to encourage generic drug use.
                        Although most negative changes promoted generic substitution, more than
                        a third did not
                        Thirty-eight percent of negative changes increased cost sharing,
                        removed drugs without providing a lower cost alternative, or added
                        utilization controls. 31 Forty-six percent of changes that did not involve
                        generic substitution removed drugs from the formulary, and 17 percent
                        added step therapy. Overall, these changes accounted for only
                        14 percent of all midyear formulary changes. Table 3 shows the types of
                        changes that did not involve generic substitution.




                          29 OIG analysis of CMS Prescription Drug Event Data, October 2008.
                          30 The six protected classes are anticonvulsants, antidepressants, antineoplastics,
                        antipsychotics, antiretrovirals, and immunosuppressants.
                          31 CMS refers to these changes as “nonmaintenance” changes. Beneficiaries who are
                        taking drugs affected by these changes are exempt from the changes for the remainder of
                        the plan year. See Appendix A for further details.



OEI-01-08-00540         MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                  10
       F   I N D I N G         S


                          Table 3: Formulary Changes That Did Not Promote Generic
                          Substitution, 2008


                            Type of Change                                                 Percentage of Nongeneric Changes
                                                                                                                    (n=1,572)

                            Remove drugs                                                                               46%
                            Add step therapy                                                                           17%
                            Add prior authorization                                                                    13%
                            Add quantity limit                                                                         11%
                            Move drugs to higher cost-sharing tiers                                                    10%
                            Other changes*                                                                               3%
                              Total                                                                                   100%
                          * Other changes include unapproved changes or those that did not require CMS approval.

                          Source: OIG analysis of Medicare Part D 2008 negative midyear formulary changes.




                   With few exceptions, sponsors met              Generally, sponsors used a
                  beneficiary notification requirements           combination of methods to notify
                                 for formulary changes            beneficiaries of midyear changes.
                                                                  Sponsors used either form letters
                          or explanation of benefits forms (EOBs) as written notice of formulary
                          changes and also included formulary changes on their Web sites. CMS
                          provides guidelines for notification letters and EOBs as forms of written
                          notice.

                          Over half (59 percent) of the sponsors we spoke with have policies of
                          sending written notices only to beneficiaries who are affected by
                          changes, per CMS rules. 32 If no beneficiaries are taking the affected
                          drugs, sponsors do not generate notification letters.
                          Notification letters largely met both timing and content requirements
                          CMS requires sponsors to provide 60 days’ notice to beneficiaries for any
                          negative changes. The notification letters we reviewed gave
                          beneficiaries more advance notice than required, with a median of
                          74 days. This means that half of the changes in the letters gave more
                          than 74 days’ advance notice. Overall, 89 percent of the changes had
                          notification times of 60 days or more. However, 9 percent of changes
                          had between 30 and 59 days, and 2 percent had less than 30 days.

                             32 42 CFR § 423.120(b)(5)(A).




OEI-01-08-00540           MIDYEAR FORMULARY CHANGES        IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                            11
             F    I N D I N G         S

                         In addition to meeting timing requirements, notification letters must
                         include six elements that describe upcoming formulary changes.
                         Table 4 indicates the percentage of letters that contained each element.
                         Overall, 88 percent of the notification letters contained all the required
                         elements. However, 12 percent of the letters contained five or fewer
                         elements.

                         Although notification letters contained the required elements nearly all
                         of the time, information on cost sharing was missing in 5 percent of
                         letters. Three sponsors submitted letters that did not contain
                         information on the changes in cost sharing, but instead included
                         statements directing enrollees to call the plans’ customer service
                         departments to find out the new cost.
                         Table 4: Percentage of Notification Letters Containing
                         Required Elements, 2008

                                                                                                          Percentage of Letters
                         Element
                                                                                                           Containing Element

                         Name of the affected drug                                                                       100%*
                         Type of change                                                                                  100%*
                         Reason for the change                                                                           100%*
                         Alternative drugs in the same class                                                             100%*
                         Information on obtaining a coverage determination or
                                                                                                                         100%*
                         exception for coverage of the affected drug
                         New expected cost sharing                                                                          95%
                       * We were unable to produce confidence intervals for these elements because all sample letters contained the
                       element. Therefore we cannot produce a measure of variability. We concluded that compliance with these
                       requirements is very high.
                       Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




                         Among other issues with notification letters, two sponsors reported
                         difficulties with subcontractors that produced their letters. Sponsors
                         may contract with pharmacy benefit managers to send notification
                         letters to beneficiaries on their behalf. However, one sponsor told us
                         that its pharmacy benefit manager failed to send letters between
                         August and October 2008 because of a data error; another sponsor’s
                         subcontracted mailing service went out of business, making it
                         impossible for the sponsor to retrieve the letters for our request. Part D
                         regulations state that sponsors are ultimately responsible for




OEI-01-08-00540          MIDYEAR FORMULARY CHANGES        IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                                      12
          F   I N D I N G        S

                          downstream contractors, such as pharmacy benefit managers and their
                          failure to send or retain notification letters. 33
                          In a few instances, sponsors misinterpreted CMS guidance on which
                          types of changes require approval. Two sponsors’ responses suggested
                          that they did not consider changes involving generic substitution or
                          other routine negative changes to require CMS approval. However, in
                          2006, CMS issued guidance clarifying that these types of negative
                          changes require approval. 34
                          Web sites we reviewed did not consistently reflect midyear changes
                          We reviewed formularies posted on 20 sponsors’ Web sites to identify
                          midyear changes approved by CMS. None of the formularies reflected
                          every change, and all online formularies varied in the extent to which
                          they reflected changes. Overall, we could not readily identify 630 of
                          1,046 approved changes (60 percent) from the NCR file in the online
                          formularies. For example, online formularies were available in PDF as
                          suggested in CMS’s guidelines, but they were not easily searchable or
                          they listed drugs by generic rather than brand names that beneficiaries
                          might recognize. CMS’s guidelines for Part D marketing materials state
                          that sponsors must update their online formularies at least monthly
                          and that their Web sites must reflect midyear changes.
                          Although we found that midyear changes were not readily accessible on
                          sponsors’ Web sites, CMS lists formulary information on the Medicare
                          Prescription Drug Plan Finder (hereinafter, Plan Finder) Web site.
                          When sponsors update their formularies each month, CMS posts the
                          formulary and pricing files to the Plan Finder. However, OIG has also
                          raised concerns about the accuracy of pricing information on the Plan
                          Finder. 35

                   CMS reviewed nearly all formulary          As stated previously, CMS
                                                              approved 79 percent of sponsors’
                  changes listed in notification letters
                                                              negative change requests.
                          Sponsors withdrew 18 percent of change requests because they
                          contained errors. CMS denied 3 percent of negative change requests.



                            33 42 CFR § 423.505(i)(4)(ii-iii).
                            34 CMS, Memorandum, “CY 2006 and CY 2007 Formulary Changes—New October
                          Submission Window and Policy on Enhancements Added Between the October and
                          February Submissions,” October 5, 2006.
                            35 OIG, Accuracy of Part D Plans’ Drug Prices Provided on the Medicare Prescription
                          Drug Plan Finder, OEI-03-07-00600, July 2009.



OEI-01-08-00540           MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                  13
                  F   I N D I N G         S

                        In addition, CMS canceled less than 1 percent of change requests
                        because they were incomplete or approval was not required.
                        CMS uses systematic checks to monitor sponsors’ formulary change
                        requests and monthly updates to formulary files. For example, CMS’s
                        Web-based file systems do not allow sponsors to obtain approval for new
                        formulary files if those files contain unapproved negative changes. CMS
                        staff also review all negative change requests by hand and deny changes
                        that lack sufficient clinical justification. In addition, CMS uses its own
                        threshold to limit changes that restrict access to certain drugs without
                        offering cost-saving alternatives or promoting drug safety. If plans
                        exceed this threshold, CMS denies the change requests and follows up
                        with the plan.

                        Even though these checks were in place, we detected some
                        noncompliance whereby sponsors failed to seek approval for midyear
                        changes. Overall, only 1 percent of changes listed in the notification
                        letters required CMS approval but were not in the original change
                        request file. Nearly all (94 percent) of these unapproved changes
                        involved substituting or adding generic drugs. The remaining 6 percent
                        of unapproved changes involved moving drugs to higher cost-sharing
                        tiers, adding utilization controls, or removing drugs from the formulary.




OEI-01-08-00540         MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                             14
                 C O N C L U S I O N
                    This study found that sponsors and CMS are managing midyear
                    formulary changes in compliance with Part D program requirements.
                    The data in this report show that 36 percent of 2008 midyear formulary
                    changes restricted the formularies, but the majority of these changes
                    also promoted cost savings through generic substitution. Part D
                    regulations require sponsors to promote cost-effective use of prescription
                    drugs where medically appropriate, and it appears that sponsors
                    adhered to these rules.
                    CMS provides sponsors with various forms of guidance on formulary
                    change requests and beneficiary notification. Although some sponsors
                    may need more specific guidance on notification practices, we found that
                    most sponsors complied with CMS regulations and provided even more
                    advance notice than the 60-day standard requires. CMS could provide
                    additional guidance to sponsors regarding cost sharing in notification
                    letters and on managing subcontractors that provide notification
                    services.

                    We reviewed a limited number of sponsors’ Web sites to identify
                    midyear changes and found that these Web sites did not reflect all the
                    changes approved by CMS. These discrepancies are of concern because
                    they deny beneficiaries accurate coverage information. CMS’s guidance
                    states that online formularies must reflect midyear changes.
                    Beneficiaries should be able to rely on the formulary on a sponsor’s Web
                    site to reflect the drugs actually covered and the cost-sharing amount
                    owed. Further analysis may be warranted to determine the full extent
                    of consistency between approved changes to sponsors’ formularies and
                    the changes that appear on their Web sites and to determine whether
                    additional guidance is needed to address any inconsistencies.


                    AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                    RESPONSE
                    CMS generally agreed with our findings. It noted that it is working
                    with a contractor to review sponsors’ online formularies to assess
                    consistency between their Web versions and CMS’s approved formulary
                    files. Also regarding sponsors’ Web sites, CMS asked whether it is
                    possible that sponsors’ failure to implement negative changes could
                    explain why we did not find those changes on the Web sites. We did not
                    determine whether, in fact, sponsors implemented the changes that we
                    could not find on their Web sites or whether sponsors sent notification
                    letters for these specific changes.


OEI-01-08-00540     MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                         15
                  C O    N C L      U S I O              N

                        We made two changes in response to CMS’s comments. First, we
                        clarified that beneficiaries taking medications subject to changes
                        unrelated to generic substitution are protected from disruptions in
                        therapy. We also corrected the text to show how we defined our sample
                        strata.

                        Finally, we will provide to CMS, under separate cover, the names of
                        sponsors we identified that either misinterpreted or appeared not to
                        comply with formulary change notification requirements so that CMS
                        can provide additional guidance to these sponsors.

                        The complete text of CMS’s comments appears in Appendix D.




OEI-01-08-00540         MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                            16
                 A P P E N D I X ~ A


                      Maintenance and Nonmaintenance Changes in the Negative Change
                      Request File
                      The Centers for Medicare & Medicaid Services (CMS) divides negative
                      formulary changes into maintenance changes and nonmaintenance
                      changes. 36 Sponsors notify CMS and request approval for these changes
                      by uploading them into CMS’s online Health Plan Management System
                      (HPMS). CMS uses HPMS to review the proposed changes and
                      communicate its approval or disapproval.

                      Maintenance changes. Sponsors make maintenance changes to
                      encourage use of new, lower cost drugs or to restrict access to a drug
                      because of safety concerns. Generally, maintenance changes provide
                      alternatives for drugs that are removed or restricted. In cases in which
                      maintenance changes do not provide alternatives or beneficiaries cannot
                      take alternative drugs, sponsors must provide a process whereby
                      beneficiaries may request coverage of the original drugs. 37 Examples of
                      maintenance changes include:

                          removal or placement in a less preferred tier of a brand-name drug
                           because of the addition of a generic or brand-name equivalent at a
                           lower tier or cost to the beneficiary;

                          addition of utilization controls when the Food and Drug
                           Administration issues a safety warning for the drug; and

                          addition of utilization controls when necessary to effect other
                           approved formulary changes (e.g., prior authorization for a
                           brand-name drug when a generic becomes available on a formulary
                           at a lower cost). 38
                      Nonmaintenance changes. Nonmaintenance changes remove or restrict
                      access to drugs without providing new alternatives. Sponsors make
                      such changes to remove drugs from formularies, add utilization controls,
                      or change cost-sharing tiers. CMS allows sponsors to make these
                      changes only if beneficiaries currently taking the affected drugs are
                      exempt from the changes for the remainder of the contract year.
                      Nonmaintenance changes include, but are not limited to:


                          36 CMS,   Medicare Prescription Drug Benefit Manual, ch. 6, §§ 30.3.3.2 and 30.3.3.3, July
                      18, 2008.
                          37 CMS,   Medicare Prescription Drug Benefit Manual, ch. 6, § 30.3.4.1.
                          38 CMS,   Medicare Prescription Drug Benefit Manual, ch. 6, § 30.3.3.2.



OEI-01-08-00540       MIDYEAR FORMULARY CHANGES     IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                  17
                  A   P   P E N D         I X ~      A


                                changing preferred or nonpreferred formulary drugs, adding
                                 utilization controls, or increasing cost sharing on preferred drugs
                                 without the addition of a lower cost or generic drug; and

                                removing dosage forms (e.g., removing the liquid form of a drug but
                                 keeping the tablet form). 39
                            Because CMS generally approves maintenance changes, sponsors may
                            send the 60-day notification to beneficiaries without waiting for CMS’s
                            explicit approval. 40 For nonmaintenance changes, sponsors must wait
                            for explicit approval before sending the notification. 41




                                39 CMS,   Medicare Prescription Drug Benefit Manual, ch. 6, §30.3.4.2.
                                40 CMS,   Medicare Prescription Drug Benefit Manual, ch. 6, §30.3.3.2.
                                41 CMS,   Medicare Prescription Drug Benefit Manual, ch. 6, §30.3.3.3.



OEI-01-08-00540             MIDYEAR FORMULARY CHANGES     IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                         18
                 A P P E N D I X ~ B

                     Detailed Methodology

                     Scope
                     This study analyzed the extent and nature of midyear formulary
                     changes made by Medicare prescription drug sponsors in 2008 and the
                     Centers for Medicare & Medicaid Services’ (CMS) monitoring of these
                     changes. It also analyzed the extent to which sponsors of prescription
                     drug plans complied with CMS notification requirements. This study
                     did not review year-to-year formulary changes or analyze specific types
                     of drugs that sponsors included in their formularies.
                     Data Sources
                     We used a stratified random sample of 120 formularies to identify and
                     analyze all midyear formulary changes (both positive and approved
                     negative changes) and to identify sponsors that sent notification letters
                     for negative changes to beneficiaries. From the sample of
                     120 formularies, we also drew a convenience sample of 20 formularies
                     that we downloaded from sponsors’ Web sites.

                     We used the Negative Change Request (NCR) file in CMS’s Health Plan
                     Management System (HPMS) to identify changes that sponsors
                     requested. We also used the Formulary Change Notification Report in
                     HPMS to identify positive formulary changes. In addition, we used the
                     Approved Formulary file for 2008 to identify unique drug codes for
                     drugs most commonly prescribed to Medicare beneficiaries as well as
                     drugs in protected classes.
                     Methodology for Drawing a Stratified Random Sample of Formularies
                     Before drawing a stratified random sample of formularies, we created a
                     file containing the universe of all Part D formularies in 2008 using the
                     following files from HPMS:

                            2008 Approved Contracts: This file contains approved 2008
                             contract numbers and sponsor information.

                            2008 Approved Plan Information: This file contains plan-level
                             data for each approved 2008 contract, including a formulary
                             identification number for plans that offer prescription drug
                             coverage.

                            2008 Plan Enrollment Information: This file contains enrollment
                             data for plans offered under each 2008 Part D contract.

                     Calculating the Total Number of Sponsors and Formularies in 2008.
                     We used information from two CMS data files to create a complete list
                     of all Part D formularies. Because these files serve different purposes

OEI-01-08-00540      MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                             19
                  A   P   P E N D          I X ~      B

                          and because CMS updates them during different periods, the number of
                          observations in each file did not always match.

                          The Plan Enrollment file had 6,010 unique plans and 821 unique
                          contracts. The file was current as of October 2008. We removed union-
                          only plans, plans with no enrollment, and plans that did not offer
                          Part D benefits. This left 723 contracts and 4,986 plans with total
                          enrollment of 25,886,069.

                          The Approved Plan Information file contained 6,874 plans and
                          809 unique contracts. The file was current as of October 2008. Once
                          again, we removed inactive contracts, union-only contracts, and those
                          that did not offer Part D benefits. This left 5,609 plans, 769 contracts,
                          and 342 formularies.

                          We merged the Plan Enrollment file with the Approved Plan
                          Information file by unique plan identifiers. This produced our
                          population file of 329 eligible formularies from which we selected our
                          random sample. This file has 329 unique formularies associated with
                          4,906 unique plans, 671 unique contracts, and 204 unique sponsors.

                          The number of unique formularies dropped from 342 on the Plan
                          Enrollment file to 329 because approved plans associated with
                          13 formularies had no enrollment. The number of unique plans
                          decreased from 4,986 to 4,906 because 2 plans with a total enrollment of
                          3 people were not on the Approved Contracts file and 78 plans had no
                          formulary identification information available. Together these 80 plans
                          consisted of less than 0.05 percent of total enrollment.

                          These 329 formularies are associated with plans having total
                          enrollment of 25,874,153, which is over 99.95 percent of total
                          enrollment.
                          Drawing a Stratified Random Sample of Formularies. We used SAS to
                          merge the list of sponsors with the NCR file to determine which
                          sponsors had submitted negative changes in 2008. 42 To select our
                          sample, we used a simple one-stage cluster sampling plan with changes
                          clustered within formularies.

                          We used the list of 329 formularies eligible for the study and then
                          divided these formularies into two strata: those that did not appear in
                          the NCR file and those that did. Stratum 1 contained 94 formularies

                            42 Copyright, SAS Institute Inc. SAS and all other SAS Institute Inc. product or service
                          names are registered trademarks or trademarks of SAS Institute Inc., Cary, NC, USA.



OEI-01-08-00540           MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                   20
             A    P   P E N D    I X ~      B


                          and stratum 2 contained 235 formularies. We then drew 50 formularies
                          from stratum 1 and 70 formularies from stratum 2.

                          We chose this sampling design to enable us to make ratio estimates of
                          the number of changes with certain characteristics over the number of
                          all changes for key areas of interest with expected absolute precision of
                          +/-10 percent at the 95-percent confidence level when expressing the
                          ratios as percentages.
                          Methodology for Analysis of Negative Formulary Changes
                          We used SAS to analyze the NCR file, which contains changes that
                          sponsors requested between January 1 and July 31, 2008. The NCR
                          system allows sponsors to choose from 25 types of changes. We
                          categorized these types of changes according to whether they added or
                          substituted generic drugs, added utilization management to encourage
                          generic drug use, and other types. The entire NCR file contained
                          14,991 negative change requests. The 120 formularies in our stratified
                          random sample had 4,333 negative change requests, 3,425 of which
                          CMS approved. We identified an additional 516 negative changes from
                          sponsors’ letters that CMS did not approve or that did not require CMS
                          approval, as explained below. Together, approved NCR changes and
                          unapproved changes from the letters accounted for all negative changes
                          (3,941).

                          To identify drugs in protected classes, we used the 2008 Approved
                          Formulary file. We created a list of the unique drug codes for drugs that
                          fell into the classes that covered anticonvulsants, antidepressants,
                          antineoplastics, antipsychotics, antiretrovirals, and immunosuppressants.
                          We compared this list to the NCR file to identify requested changes that
                          involved protected drugs.

                          Similarly, we identified drugs most commonly prescribed for Medicare
                          beneficiaries using the list of classes from the Medicare Prescription Drug
                          Benefit Manual, chapter 6, Appendix D. We used the 2008 Approved
                          Formulary file to create a list of the unique drug codes for drugs that fell
                          into these classes. We then compared this list to the NCR file to identify
                          requested changes that involved drugs most commonly prescribed to
                          Medicare beneficiaries.
                          Methodology for Analysis of Positive Formulary Changes
                          To analyze positive changes to formularies in 2008, we used data from
                          the Formulary Change Notification Report (hereinafter, the report) in
                          HPMS. Sponsors may submit new versions of their formularies each
                          month, and HPMS assigns a new version number to the formulary each


OEI-01-08-00540           MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                21
          A P     P E N D    I X ~        B


                       time sponsors resubmit it. For each formulary in our sample, we used
                       the report to compare drugs included in the first approved formulary
                       version in or around the end of October 2007 with drugs in the last
                       approved version in 2008. CMS aims to approve all formularies by this
                       time each year so sponsors may post them on their Web sites prior to
                       the Annual Election Period, which begins November 15. CMS first
                       approved the majority of formularies in our sample on or around
                       October 29, 2007. The 120 formularies in our sample had 7,886 positive
                       changes.

                       We also used the report to identify changes that added new drugs to the
                       formulary, reduced cost sharing, or removed utilization controls. Because
                       that report does not assign a type to each change, we looked at the
                       differences between the formulary versions and assigned positive change
                       types, as shown in Table B-1. We added positive changes to the file of
                       negative changes to create a file of all formulary changes.
                       Table B-1: Types of Positive Changes


                         Type of Change                                                                            Description


                                                                       The sponsor decreased the number of days before
                         Decrease quantity limit day
                                                                              a beneficiary may obtain a refill on the drug
                                                                        The sponsor decreased the number of drugs that
                         Decrease step group                           must be tried in step therapy before the beneficiary
                                                                                                       can obtain this drug
                                                                        The sponsor placed the drug in a tier with a lower
                         Move drug to lower cost-sharing tier
                                                                                                               copayment
                                                                                  The sponsor removed prior authorization
                         Delete prior authorization
                                                                                                             for the drug
                         Delete quantity limit                         The sponsor removed the quantity limit on the drug
                         Delete step therapy                               The sponsor removed step therapy for the drug
                                                                         The sponsor increased the quantity of drugs that
                         Increase quantity limit
                                                                                          may be dispensed at one time
                       Source: Office of Inspector General analysis of Medicare Part D 2008 midyear formulary changes.




                       Methodology for Notification Letter Request and Analysis
                       We used a file of compliance officer contacts to identify 150 compliance
                       officers associated with the formularies within our sample. The number
                       of compliance officers is greater than the sample of formularies because
                       some sponsors had more than one compliance officer. We sent letters to
                       the compliance officers requesting copies of letters they sent to their
                       enrollees notifying them of negative midyear formulary changes in
                       2008. To avoid duplicative letters, we did not request a copy of every

OEI-01-08-00540        MIDYEAR FORMULARY CHANGES       IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                            22
             A    P   P E N D    I X ~      B


                          letter sent to every enrollee; rather, we asked for letters that covered all
                          negative changes. We achieved a 100-percent response. However,
                          10 compliance officers told us that they no longer oversaw the
                          formularies we referenced in our request. Therefore, we obtained all the
                          required letters and information on the sampled formularies from
                          140 compliance officers. We later followed up with these compliance
                          officers to collect more information on sponsors’ notification policies.

                          Sixty percent of respondents included notification letters, while
                          40 percent said that they did not make any negative changes to their
                          formularies or did not send letters because none of their enrollees was
                          affected by the negative changes.
                          CMS does not require sponsors to send notification letters to
                          beneficiaries who are not taking the affected drugs, and sponsors do not
                          send letters for changes that CMS disapproves. Thus, sponsors could
                          not send us notification letters covering every approved negative change
                          they made. The letters we received covered 55 percent of requested
                          changes.

                          We reviewed 853 letters covering 2,197 formulary changes. Of these
                          changes, 516 were not approved by CMS or did not require CMS
                          approval. We calculated the total number of formulary changes by
                          adding unapproved changes (516) to the total positive changes (7,886)
                          and total approved changes from the NCR file (3,425). This summed to
                          11,827.

                          To analyze changes listed in sponsors’ letters, we first determined
                          whether the changes were in the NCR file and then determined the
                          presence or absence of each of the six required elements in the letters,
                          the date the letter was sent, and the date the change became effective.
                          Some letters lacked dates because sponsors redacted parts of the letters
                          to protect enrollees’ privacy. Therefore, we omitted these letters when
                          analyzing notification time. For letters that did not appear in the NCR
                          file, we also determined whether the changes required CMS approval.
                          Methodology for Analysis of Sponsors’ Web Sites
                          We selected a convenience sample of 20 formularies from our stratified
                          random sample of 120 formularies. We identified the sponsors that
                          used those formularies using our list of 2008 sponsors. In
                          December 2008, we went to each sponsors’ Web site and downloaded the
                          PDF version of each formulary.

                          Using data from the report, we identified negative changes that CMS
                          had approved for the 20 formularies. We reviewed each online

OEI-01-08-00540           MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                 23
                  A   P   P E N D     I X ~      B


                            formulary, focusing on four negative changes: (1) added prior
                            authorizations, (2) drugs moved to higher cost-sharing tiers, (3) added
                            step therapy, and (4) added quantity limits. We searched the
                            20 formularies for the brand and the generic names to determine
                            whether the changes were accurately reflected in the formularies.
                            Methodology for Analysis of CMS Staff Interviews
                            We interviewed CMS staff responsible for monitoring and approving
                            midyear formulary change requests and updates. We asked them for
                            detailed information on the databases they use to track formularies, and
                            we clarified technical aspects of our data collection to ensure we
                            analyzed midyear changes appropriately. We also collected descriptive
                            data from members on the processes they use to review change requests
                            and the criteria they used to approve or disapprove changes.
                            Limitations
                            We could not assess whether sponsors sent a notification letter to every
                            enrollee who should have received one. CMS requires sponsors to notify
                            only those enrollees affected by negative formulary changes. However,
                            we could not determine which enrollees were affected by each change
                            and whether they received letters. Rather, we examined the content of
                            the notification letters and checked to see whether CMS had approved
                            negative changes for the drugs listed in the letters.




OEI-01-08-00540             MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                 24
                      A P P E N D I X ~ C

                  Data Tables
                  Table C-1: Population Counts of 2008 Part D Sponsors

                    Population of Part D                    Sponsors That Requested                   Sponsors of Sampled
                    Sponsors                                          Negative Changes                            Formularies

                    204                                                        156 (76%)                                  87
                  Source: Office of Inspector General (OIG) analysis of Medicare Part D 2008 midyear formulary changes.




                  Table C-2: Sample Design Information, 2008 Part D Formularies


                    Stratum                                             Population Size                          Sample Size


                    1 – Formularies without
                                                                                       94                                 50
                    negative change requests
                    2 – Formularies with negative
                                                                                      235                                 70
                    change requests
                       Total                                                          329                                 120
                  Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




                  Table C-3: Percentage of Requested Negative Changes by CMS*
                  Approval Status, 2008
                                                                         Point Estimate
                    Approval Status                                                                95% Confidence Interval
                                                                               (n=4,333)


                    Approved                                                      79.0%                         68.8%–89.2%
                    Denied                                                         2.7%                            1.4%–4.0%
                    Withdrawn                                                     17.9%                           7.3%–28.5%
                       Total                                                       100%
                  *Centers for Medicare & Medicaid Services (CMS).

                  Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




OEI-01-08-00540           MIDYEAR FORMULARY CHANGES        IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                                25
                  A     P    P E N D            I X ~       C

                      Table C-4: Percentage of Positive and Negative Formulary
                      Changes, 2008

                        Type of Change                                          Point Estimate
                                                                                                     95% Confidence Interval
                                                                                    (n=11,827)

                        Positive                                                         63.6%                59.4%–67.7%
                        Negative                                                         36.3%                32.2%–40.5%
                            Total                                                        100%
                      Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




                      Table C-5: Percentage of Positive Changes by Type, 2008


                        Type of Positive Change                                 Point Estimate
                                                                                                     95% Confidence Interval
                                                                                     (n=7,886)

                        Decreased cost-sharing or removed
                                                                                         59.9%                55.4%–64.3%
                        utilization management
                        Added drugs to the formulary                                     40.0%                35.6%–44.5%
                            Total                                                        100%
                      Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




                      Table C-6: Mean Number of Drugs Added to or Removed From
                      Formularies, 2008

                        Type of Change                                          Point Estimate       95% Confidence Interval


                        Added drugs to formularies                                         46.0                   41.5–50.4
                        Removed drugs from formularies                                     22.1                   17.5–26.6
                        Ratio of drugs added to drugs removed                               2.1                     1.8–2.4
                      Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




OEI-01-08-00540              MIDYEAR FORMULARY CHANGES       IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                               26
                  A   P     P E N D            I X ~         C

                      Table C-7: Percentage of Negative Changes by Type, 2008

                                                                                        Point Estimate
                          Type of Negative Change                                                               95% Confidence Interval
                                                                                              (n=3,941)


                          Remove drugs                                                           56.1%                     47.8%–64.4%
                          Move drugs to higher cost-sharing tiers                                17.2%                     10.4%–23.9%
                          Add step therapy                                                        6.6%                      3.1%–10.0%
                          Add prior authorization                                                 5.0%                        3.4%–6.6%
                          Add quantity limit                                                      4.2%                        2.5%–5.8%
                          Other changes*                                                         11.1%                      8.9%–13.4%
                           Total                                                                  100%
                      * Other changes include removing discontinued drugs or adding utilization controls to promote drug safety or to
                      determine Part B vs. Part D reimbursement.

                      Source: OIG analysis of Medicare Part D 2008 negative midyear formulary changes.




                      Table C-8: Percentage of Negative Changes That Promoted Generic
                      Substitution, 2008

                          Type of Negative Change                                       Point Estimate
                                                                                                                95% Confidence Interval
                                                                                             (n=3,941)


                          Negative changes that promoted
                                                                                                 62.2%                     57.4%–66.9%
                          generic substitution
                      Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




                      Table C-9: Percentage of Negative Changes Promoting Generic
                      Substitution by Negative Change Type, 2008

                                                                    Percentage of This
                          Type of Change                                                                                 95% Confidence
                                                                 Change That Promoted                 Sample Size
                                                                                                                                Interval
                                                                   Generic Substitution

                          Remove drugs/substitute
                                                                                   86.7%                      2,169        81.5%–91.9%
                          generics
                          Move drugs to higher cost-
                                                                                   77.9%                        668        65.8%–90.0%
                          sharing tiers

                          Add step therapy                                         0.7%*                        259                     N/A

                          Add prior authorization                                  0.5%*                        199                     N/A

                          Add quantity limit                                          0%*                       162                     N/A

                          Other changes                                            11.2%                        516         8.9%–13.5%
                      * We did not project this estimate because the confidence interval contains zero. While we cannot quantify the error in
                      this estimate, the fairly large sample size and low incidence rate indicate that this change probably did not promote
                      generic substitution very often in the population.
                      Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




OEI-01-08-00540                 MIDYEAR FORMULARY CHANGES        IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                                              27
                  A   P   P E N D            I X ~        C


                          Table C-10: Negative Changes and Generic Substitution Among
                          Drugs Most Commonly Prescribed to Medicare Beneficiaries, 2008

                           Type of Negative Change                         Point Estimate       Sample Size   95% Confidence
                                                                                                                     Interval


                            Negative changes affecting drugs
                            most commonly prescribed to                             46.3%             3,941     43.0%–49.7%
                            Medicare beneficiaries
                            Percentage of these changes that
                                                                                     69.3%            1,747     63.0%–75.6%
                            involved generic drugs
                          Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




                          Table C-11: Negative Changes and Generic Substitution Among
                          Drugs in Protected Classes, 2008

                            Type of Negative Change                        Point Estimate       Sample Size   95% Confidence
                                                                                                                     Interval


                            Negative changes affecting drugs in
                                                                                    39.2%             3,941     37.6%–40.8%
                            protected classes
                            Percentage of these changes that
                                                                                     69.0%            1,475     64.9%–73.0%
                            involved generic drugs
                          Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




                          Table C-12: Percentage of Changes Not Promoting Generic
                          Substitution by Change Type, 2008

                            Type of Change                                 Point Estimate       Sample Size   95% Confidence
                                                                                                                     Interval


                            Negative changes that did not
                                                                                    38.2%             3,941     33.5%–42.9%
                            promote generic substitution
                            All changes that did not promote
                                                                                     13.9%           11,827     12.2%–15.6%
                            generic substitution
                          Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




OEI-01-08-00540                  MIDYEAR FORMULARY CHANGES       IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                                28
                  A   P     P E N D             I X ~      C

                      Table C-13: Percentage and Number of Sample Sponsors by Midyear
                      Formulary Changes Notification Policies, 2008
                          Notification Policy
                                                                                       Percentage
                                                                                                                Count
                                                                                          (n=140)


                          Notify only affected beneficiaries                               58.5%                   82
                          Notify all beneficiaries                                          37.1%                  52
                          Do not make any negative changes                                      4.2%                   6
                      Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




                      Table C-14: Sponsors’ Notification Time for Negative Formulary
                      Changes, 2008

                          Notice                                                                       Sample Median


                          Days’ notice for midyear formulary changes                                              74
                      Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




                      Table C-15: Percentage of Negative Formulary Change Letters by
                      Timing of Notification, 2008
                                                                                                           Percentage
                          Timing of Notification                                                             (n=1,557)


                          > 60 days                                                                            89.4%
                           59 days  30 days                                                                   8.7%
                          < 30 days                                                                             1.9%
                      Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




OEI-01-08-00540                MIDYEAR FORMULARY CHANGES       IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                           29
                  A   P     P E N D            I X ~      C

                      Table C-16: Percentage of Changes With Notification Letters
                      Containing Required Elements, 2008
                                                                            Percentage of Changes
                          Element                                                 With Letters That
                                                                                                              95% Confidence Interval
                                                                            Contained This Element
                                                                                          (n=2,197)
                          All six required elements                                             87.5%                  86.1%–88.9%
                          Five or fewer required elements                                       12.5%                   11.1%–3.8%
                             Total                                                              100%
                      Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




                      Table C-17: Percentage of Negative Formulary Changes That Did Not
                      Promote Generic Substitution, 2008

                                                         Percentage of Negative
                           Type of Change                          Changes Not                                       95% Confidence
                                                                                             Sample Size
                                                             Promoting Generic                                              Interval
                                                          Substitution (n=1,572)

                          Remove drugs                                     45.7%                      741              37.7%–53.8%
                          Add step therapy                                 17.1%                      257               8.8%–25.5%
                          Add prior authorization                          13.3%                      200               9.1%–17.5%
                          Add quantity limit                               10.9%                      162               7.2%–14.7%
                          Move drugs to higher
                                                                           10.1%                      153               4.5%–15.7%
                          cost-sharing tiers
                          Other changes*                                    3.0%                         65              2.3%–4.0%
                            Total                                           100%
                      * Other changes include unapproved changes or those that did not require CMS approval.

                      Source: OIG analysis of Medicare Part D 2008 negative midyear formulary changes.




OEI-01-08-00540                MIDYEAR FORMULARY CHANGES      IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                                    30
                  A   P    P E N D            I X ~           C

                      Table C-18: Percentage of Changes With Notification Letters
                      Containing Six Required Elements, 2008

                                                                                Percentage of Changes
                          Element                                                     With Letters That        95% Confidence Interval
                                                                                Contained This Element

                          Name of the affected drug                                             100.0%*                                  N/A
                          Type of change made to the affected drug                              100.0%*                                  N/A
                          Reason for the change                                                 100.0%*                                  N/A
                          Alternative drugs in the same class                                   100.0%*                                  N/A
                          Information on obtaining a coverage
                          determination or exception for coverage of                            100.0%*                                  N/A
                          the affected drug
                          New expected cost-sharing                                                94.5%                  93.9% - 95.2%
                      * We were unable to produce confidence intervals for these elements because all sample letters contained the element.
                      Therefore we cannot produce a measure of variability. We concluded that compliance with these requirements is very
                      high.
                      Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




                      Table C-19: Unapproved Implemented Changes, 2008


                                                                                                                     95% Confidence
                           Type of Unapproved Change                      Point Estimate           Sample Size
                                                                                                                            Interval


                          Changes that required a letter                          0.8%                   11,827            0.5% - 1.2%
                          Changes that required a letter
                                                                                 93.5%*                      117       86.3% - 100.0%
                          and involved generic substitution
                          Changes that required a letter
                          and involved increased cost
                                                                                 5.4%**                      117                    N/A
                          sharing or added utilization
                          controls
                      * The confidence interval for this estimate contains 100. Therefore, we cannot produce a measure of variability.
                      ** We were unable to produce confidence intervals for these estimates because of small sample size.
                      Source: OIG analysis of Medicare Part D 2008 midyear formulary changes.




OEI-01-08-00540                MIDYEAR FORMULARY CHANGES          IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                                           31
             A P PEN D                                    x        D

              Agency Comments



                  ,......""<1 ....



              (           ~            DEPAKrMENT OF HEALTII & HUMAN SERVICF-'                                      Center. for Medicare & Medicaid Services


                   S'r                                                                                              Administrator
                                                                                                                    Washington, DC 20201




                                     TO:             Daniel R. Levinson
                                                    ,Inspector Genqal
                                                                          /S/
                                     FROM:           Charlene Frizzera
                                                     Acting Administrator

                                     SUBJECT:       Office of Inspector General (OIG) Draft Report: "Midyear Formulary Changes in
                                                    Medicare Prescription Drug Plans," (OEI·OI-08-00540)


                                     Thank you for the opportunity to comment on the OIG Draft Report: "Midyear Formulary
                                     Changes in Medicare Prescription Drug Plans,"OEI-Ol-08-00540. The Centers for Medicare &
                                     Medicaid Services (CMS) recognizes the importance of close oversight of the midyear formulary
                                     change process. CMS has developed a midyear formulary change policy and implemented a
                                     standardized process that not only enables Part D sponsors to continue to offer cost-effective
                                     prescription drug coverage, but also ensures that Medicare beneficiaries continue to receive their
                                     necessary medications without disruption in therapy or changes in coverage.

                                     The OIGdeveloped a sound study methodology to research the degree to which Part D
                                     formularies change and Part D sponsors' compliance with CMS formulary change notification
                                     requirements. CMS generally concurs with the OIG regarding its findings. Please note that the
                                     current draft of the report still contains an error in the Data Sources section on page 6. The
                                     numbers for stratum 1 and stratum 2 are reversed. Based on the OIG report and our own internal
                                     numbers, the majority of formularies made midyear changes, and we thus believe stratum' I
                                     contained 235 formularies and stratum 2 contained 94 formularies.

                                     Based on the sampling method utilized in the study, OIG found that 38 percent of midyear
                                     formulary changes were not related to generic substitution. Other formulary cbangesthat CMS
                                     also considers best practice are included in the report. The addition of prior authorization (P A)
                                     based upon a new United States Food and Drug Administration boxed warning or clinical
                                     guidelines recognized by CMS, for example, protects the interests of Medicare beneficiaries. As
                                     currently written, the finding that 38 percent of changes were unrelated to generic substitution
                                     suggests that these types of changes are not important formulary management techniques. Thus,
                                     this finding appears to overstate the number of non-maintenance formulary changes. Upon
                                     clarification of this finding in the report, we also respectfully req1,lest restatement in this section
                                     that beneficiaries currently taking drugs that are subject to a non-maintenance change are exempt
                                     from that change. CMS feels that this "grandfathering" requirement protects the beneficiary
                                     from disruptions in therapy.




OEI·01·08·00540                            MIDYEAR FORMULARY CHANGES IN MEDICARE PRESCRIPTION DRUG PLANS
                                                                                                                                                        32
    A   P   P E N D   I X     ~      D




OEI-01-08-00540       MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                          33
           A C K N O W L E D G M E N T S


                    This report was prepared under the direction of Joyce Greenleaf,
                    Regional Inspector General for Evaluation and Inspections in the
                    Boston regional office, and Russell Hereford, Deputy Regional Inspector
                    General.

                    Maria Maddaloni served as the team leader for this study, and Melissa
                    Hafner served as the lead analyst. Other principal Office of Evaluation
                    and Inspections staff from the Boston regional office who contributed to
                    this report include Tim Chettiath; central office staff who contributed
                    include Kevin Farber and Kevin Manley.




OEI-01-08-00540     MIDYEAR FORMULARY CHANGES   IN   MEDICARE PRESCRIPTION DRUG PLANS
                                                                                         34
